STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES
ATTORNEY GENERAL

BARBARA D. UNDERWOOD
SOLICITOR GENERAL

June 14, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Via E-Filing and First-Class Mail
Re: Ortiz v. Breslin, No. 20-7846
Dear Mr. Harris,
In the above-referenced case, the Court has requested that
respondents Dennis Breslin, Superintendent of Queensboro Correctional
Facility, and the New York State Department of Corrections and
Community Supervision, file a response to the petition for writ of
certiorari by June 28, 2021. Respondents respectfully ask that the date
by which they must file their response be extended 30 days to July 28,
2021.
There is good cause for this extension. Substantial additional client
obligations pre-dating the receipt of the petition for a writ of certiorari
and this Court’s request for a response, including the preparation of
briefs to be filed and/or oral arguments to be presented in this Court, the
United States Court of Appeals for the Second Circuit, and various New
York State appellate courts, render me and the other attorneys from my
office assigned to this matter unable to file the requested response by the
current deadline. Petitioner does not object to the extension sought
herein.
THE CAPITOL, ALBANY, NEW YORK 12224 • PHONE (518) 776-2040 • FAX (518) 915-7723 • E-MAIL BRIAN.GINSBERG@AG.NY.GOV

Respectfully submitted,

BRIAN D. GINSBERG
Assistant Solicitor General
Counsel for Respondents
cc:

All Counsel of Record

2

